61:

!
:

DOCKET NO.

Supreme Court, U.S.
FILED

SEP 0 1 2021
OFFICE OF THE CLERK

IN THE UNITED STATES SUPREME COURT
Carlos Velasquez
v.

State of Utah by & through the Utah Legislature incl. the Utah Office of Legislative
Research and General Counsel, and also incl. the Utah Department of Human
Services, Utah Division of Aging and Adult Services/APS, incl. other UDHS
Agencies

On Petition for Writ of Certiorari

PETITION FOR WRIT OF CERTIORARI

Carlos Velasquez, Pro Se Appellant
Civil Bureaucratic Federalist
PO Box 58486
Salt Lake City, UT 84158

QUESTIONS FOR REVIEW
1. In Limited Government terms, when are effective limitations so tangible as to
define Fraud on the Court and Criminal Contempt in terms of judicial
misrepresentation

of

Independent

Citizens’

Civil

petitions

against

Unconstitutional State laws?

2. Abuse of Procedures: Are written opinions, final judgments, by any Federal
Judge fraudulent in declaration just in terms of read and review, when
apparently designed to affirm and protect, to covert, a deliberative
misrepresentation, to successively maintain fraudulent disposition against
any kind of party? (Is it not a fraudulent declaration, when based upon a
previous and similar fraud?)

3. IFP Screening, Whether effective case screening was irrequisite: should not
District Courts and Courts of Appeals take decent and reasonable care to
maintain the validity, realism, and legality of any original filing by any party
proceeding in forma pauperis, and neither have misrepresented nor abridged
essential, recognizable, and consensual substance of the filing?

TABLE OF CONTENTS
TABLE OF AUTHORITIES

vi

LIST OF PARTIES TO THE PETITION

x

LIST OF FEDERAL PROCEEDINGS

Xll

ORIGINAL AND RELEVANT LAWS

xiv

BASIS FOR JURSDICTION

1

STATEMENT OF THE CASE

6

REASONS GRANTING

19

RELIEF

33

CONCLUSION

37

IV

TABLE OF AUTHORITIES
Statutes
28 U.S.C§ 1915

4, 8, 9, 12

28 U.S.C. § 1254

3

28 U.S.C. § 1291

4

28 U.S.C. § 136

5

42 U.S.C. § 1343

4

42 U.S.C. § 3058d

21

Ut. Code § 62A-3-301

20, 25
Other Authorities

18A Charles Alan Wright & Arthur R. Miller, Federal Practice and Procedure §
4436 (3d ed., Oct. 2020 update)

15
Rules

Fed. R. App. P. 4

3, 8, 12, 33

Fed. R. App. P. 40

2

Fed. R. Civ. P. 12

7

Fed. R. Civ. P. 56

13, 38

Fed. R. Civ. P. 8

19

U.S. Supr. Ct. R. 13

1

Utah Administrative Rule R510-1

9, 20
vi

Legislation
Utah S.B. 63 (2008)

21, 25
Judicial Rulings

Ashcroft v. Iqbal, 556 U.S. 662 (2009)

13, 14

Bell Atl. Corp. v. Twombly, 550 U.S. 544 (2007)

13

Bell v. Dillard Dept. Stores, Inc., 85 F.3d 1451 (10th Cir. 1996)

15

Brereton v. Bountiful City Corp., 434 F.3d 1213 (10th Cir. 2006)

14

Bronson v. Swensen, 500 F.3d 1099 (10th Cir. 2007)

13

City of Los Angeles v. Lyons, 461 U.S. 95 (1983)

34

Exxon-Mobil Corp. v. Saudi Basic Indus. Corp., 524 U.S. 280 (2005)

23

Great Western Mining & Mineral Co., v. Fox Rothschild LLP, 615 F.3d (2010).......23
In re Philadelphia Entm’t partners v. Commonwealth of Pennsylvania Dept, of
Revenue, 569 B.R. 394 (E.D. Pa. 2017)

22

Kay v. Bemis, 500 F.3d 1214 (10th Cir. 2007)

12

King v. Union Oil co., 117 F.3d 443 (10th Cir. 1997), a Rule 56(c)

11

Levin, Middlebrooks, Mabie, Thomas, Mayes, & Mitchell, P.A. v. U.S. Fire Ins. Co.,
639 So.2d 606 (Fla. 1994)

28

Lujan v. Defenders of Wildlife, 504 U.S. 555 (1992)

34

Marbury v. Madison, 5 U.S. 137 (1803)

18

Mathews v. Eldridge, 424 U.S. 319 (1976)

Vll

20, 32

Mecca v. U.S. 389 F.Appx. 785 (10th Cir. 2010)

14 ~ —

Mitchell v. City of Moore, 218 F.3d 1190, 1202 (10th Cir. 2000)

12

Morrissey v. Brewer, 480 U.S. 471 (1972)

20

Moss v. Parr Waddoups Brown Gee & Loveless, 285 P.3d 1157, 2012 UT 42

16, 29

O’Connor v. Burningham, 165 P.3d 1214

28

Pratt v. Nelson, 164, P.3d 366

28

Richison v. Ernest Group., Inc., 364 F.3d 1123 (10th Cir. 2011)

15

Ridge at Red hawk, L.L.C., v. Schneider, 439 F,3d 1174, 1177 (10th Cir. 2017)

14

SIL-FLO Inc. v. SFHC, Inc., 917 F.2d 1507 (10th Cir. 1990)

15

The Wilderness Society v. Kane County, Utah 470 F.2d 1300 (D.Utah, 2006)

8

United States v. Buck, 281 F.3d 1336 (10th Cir. 2002)

12

United States v. Mobley, 971 F.3d 1187 (10th Cir. 2020)

12

Wilkes v. Wyo. Dept, of Empl. Div. of Labor Standards, 314 F.3d 501 (10th Cir. 2003)
11

vm

PROCEDURAL STATEMENTS

DOCUMENT PREPARATION
This Opening Complaint is self-prepared under U.S. Supr. Ct. R. 33.2, is
printed on high-quality paper in Century Schoolbook font, Double-Point Space.
Observing U.S. Supr. Ct. R. 33.2, direct quotations from original Plaintiff
pleadings are not indented, only those quotations containing any judicial opinion are
indented.
The document complies with the Word Limit prescribed under U.S. Supr. Ct.
R. 33.1(g), excluding prefatory material, is under 9000 words including Footnotes.

AFFIDAVIT UNDER OATH
I declare under penalty of perjury (28 U.S.C. § 1746) that the claims and materials
presented within this Petition for Writ of Certiorari, as all documents and motions
related, are true and correct. Executed on

IX

LIST OF PARTIES TO THE PETITION
U.S. Court of Appeals received a ‘Notice of Non-Participation’ (filed 9/28/20) referring
to the following original parties:1
STATE OF UTAH
1. Gary R. Herbert (Fmr. Gov.);
2. Sean Reyes (Atty. Gnrl.);
UTAH DEPARTMENT OF HUMAN SERVICES
3. Utah Division of Aging and Adult Services; Nels Holmgren (Div. Dir. DAAS);
4. J. Stephen Mikita (Asst. Atty. Gnrl. APS); Hon. Ms. Sonia Sweeney
(Div. Dir. Of. Admin.Hrngs.);
5. Ms. Laura Thompson, CWLS (Asst. Atty. Gnrl. UDHS);
6. Ms. Amanda Slater (Div. Dir. Office of Lie.).
Utah Asst. Solicitor General, Erin Middleton filed said notice, with forwarding
to the Utah Office of Legislative Research and General Counsel, Mr. Thomas R.
Vaughn.
Therefore, this Petition for Writ of Certiorari is addressed to the Utah Asst.
Solicitor General who may receive and distribute any relevant issues to the above
parties.

i COA Docket #10774223, Case No. 20-4087.

x

PARTIES FOR STATE OF UTAH
Ms. Erin Middleton
Assistant Solicitor General
Utah Attorney General’s Office
P.0 Box 140858
Salt Lake City, UT 84114
PARTIES IN UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT2
Hon. Judge, Mr. Bobby Baldock
Hon. Judge, Ms. Allison Eid
Hon. Judge, Ms. Meghan Moritz
PARTIES IN UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF UTAH
Hon. Snr. Judge, Mr. Dale A. Kimball
Hon. Judge, Mr. David Nuffer

2 Judges are all served in Professional Capacity upon their chambers.
xi

LIST OF FEDERAL PROCEEDINGS

U.S. Supr. Ct. R. 14 (b)(iii): No proceeding in the State of Utah openly evaluated the
constitutionality of the Ut. Code § 62A-3-301, et seq. as may be defined
42 U.S.C. § 3000, et seq., The Older Americans Act amended after 1992 under the
Federal Jurisdiction (28 U.S.C. § 1331) and Civil Rights Act jurisdiction (28 U.S.C. §
1343), nor has any lower court opinion directly allowed a complex argument to
develop.
United States Courts are apparently prejudiced to reject partial and unfaithful
judicial opinions when the expression of the opinion cannot outweigh decent and
reasonable objections by the party aggrieved. This matter primarily addresses how
to overcome a criminally disposed judicial adversary when expressed beyond the
merit of authority and judicial privilege.

United States Supreme Court
1. 19-6263 - Carlos Velasquez, Applicant v. State of Utah, et al.
(Cert. Denied/Rehearing 3/21/20)
United States Court of Appeals for the Tenth Circuit
2. Velasquez v. State of Utah by & through Utah Leg., Utah DAAS/APS, UDHS
Agencies, Case No. 20-4087 (Init. Term.4/26/21)
3. Velasquez v. State of Utah, et al., Case No. 19-4041 (Init. Term.: 6/11/19)

Xll

United States District Court for the District of Utah
4. Velasquez v. State of Utah by & through Utah leg. Incl Utah OLRGC, Utah
DAAS/APS, UDHS Agencies, Case No. 2:20-cv-00205-DAK
5. Velasquez v. State of Utah, et al., Case No. 2:18-cv-00728-DN
(Init. Term. 2/25/19)

xm

ORIGINAL AND RELEVANT LAWS

FEDERAL RULE OF CIVIL PROCEDURE 60(d)(3) - FRAUD ON THE COURT
Other Powers to Grant Relief. This rule does not limit a court’s power to: (3) set
aside a judgment for fraud on the court.

18 U.S.C. § 401 (2) - CONTEMPTS: POWER OF COURT - “A court of the United
States shall have power to punish by fine or imprisonment, or both, at its discretion,
such contempt of its authority, and none other as misbehavior of any of its officers in
their official transactions.

28 U.S.C. § 1331 - JURISDICTION: FEDERAL QUESTION - “The district court
shall have original jurisdiction of all civil actions arising under the Constitution,
laws, or treaties of the United States.”

28 U.S.C. § 1343 - JURISDICTION: CIVIL RIGHTS - “(a)The District courts shall
have original jurisdiction of any civil action authoritzed by law to be commenced by
any person: (3) to redress the deprivation, under color of any [State law] secured by
the Constitution of the United States or by any Act of Congress providing for equal
rights of citizens or of all persons within the jurisdiction of the United States; and (4)
To recover damages or to secure equitable or other relief under any Act of Congress
providing for the protection of [civil rights].
xiv

42 U.S.C. § 1983 - CIVIL RIGHTS: CIVIL ACTION FOR DEPRIVATION OF
RIGHTS - “Every person who, [under color of any statute of any State] subjects [and]
causes to subjected, any citizen of the United States or other person within the
jurisdiction thereof to the deprivation of rights, privileges, or immunities secured by
the Constitution and laws, shall be liable to the party injured in an action at law, suit
in equity, or other proceeding for redress [.]”

42 U.S.C. § 1988 - CIVIL RIGHTS: PROCEEDINGS IN VINDICATION OF CIVIL
RIGHTS - “(a) The jurisdiction in civil matter conferred on the district courts by the
provisions of titles 13, 24, and 70 of the Revised States for the protection of all person
in the United States in their civil rights, and for their vindication, shall be exercised
and enforced in conformity with the laws of the United States, so far as such laws are
suitable to carry the same into effect [.] .

42 U.S.C. § 3000, et seq. - PROGRAMS FOR OLDER AMERICANS: DECLARATION
OF OBJECTIVES AND DEFINITINS; GRANTS FOR STATE AND COMMUNITY
PROGRAMS ON AGING; ALLOTMENTS FOR VULNERABLE ELDER RIGHTS
PROECTION 42 U.S.C. § 3001, “The Congress hereby finds and declares that, in keeping with the
traditional American concept of the inherent dignity of the individual in our
xv

democratic society, the older people of our Nation are entitled to, and it is the joint
and several duty and responsibility of the governments of the United States, of the
several States and their political subdivisions, and of Indian tribes to assist our older
people to secure equal opportunity to the full and free enjoyment of the following
objectives:
“(10) Freedom, independence, and the free exercise of individual initiative in
planning and managing their own lives, full participation in the planning and
operation of community-based services and programs provided for their benefit, and
protection against abuse, neglect, and exploitation.” [R. 260].

42 U.S.C. § 3002 - REPRODUCED FROM THE RECORD IN THE DISTRICT
COURT AND INCLUDED WITH THE SUPPLEMENTAL APPENDIX
42 U.S.C. § 3027 (a)(1), “The plan shall provide, whenever the State desires to provide
for a fiscal year for services for the prevention of abuse of older individuals—(A) the
plan contains assurances that any area agency on aging carrying out such services
will conduct a program consistent with relevant State law and coordinated with
existing State adult protective service activities for-(ii) receipt of reports of abuse of
older individuals; (iv) referral of complaints to law enforcement or public protective
service agencies where appropriate. [R. 291].

xvi

(12)(B) “The State will not permit involuntary or coerced participation in the
program of services described in this paragraph by alleged victims, abusers, or their
households[.]” [R. 299].

42 U.S.C. § 3058b (b), “If the Assistant secretary finds that any State has failed to
carry out this subchapter in accordance with the assurances made and description
provided under 42 U.S.C. § 3058d of this title, the Assistant Secretary shall withhold
the allotment of funds to the state.” [R. 313].

42 U.S.C. § 3058ee (a), “Access — The Assistant Secretary, the Comptroller General
of the United States, and any duly authorized representative of the Assistant
Secretary or the Comptroller shall have access, for the purpose of conducting an audit
or examination, to any books, document, papers, and records that are pertinent
assistance received under this subchapter. [R. 331].

XVII

BASIS FOR JURSDICTION3
ON PETITION FOR WRIT OF CERTIORARI
1. General basis in good faith; JUDGES in the lower courts do not correctly,
decently, or reasonably recognize the Opening Complaint, but refuse to
recognize a question under jurisdiction remains untreated in the court’s
records. Thus issues of the personal jurisdiction of JUDGES arise in Fraud on
the Court terms and are improperly mitigated to misprise the District of Utah
Court, and the Tenth Circuit Court of Appeals, of the content of the
Opening Complaint.
2. U.S. Supreme Court Rule 10 (a) and (c), the Court of Appeals has defaulted
and so decided an important issue of law while having departed excessively
from an acceptable course of review, and has misrepresented the Opening
Complaint to coerce the case dismissal under color of law, now falsifying
standards of claim/issue preclusion are nominally limited to relevant
precedence. The lower courts obstruct jurisdiction and good faith in read and
review.
3. Petition for Writ of Certiorari to United States Supreme Court is timely before
9/6/2021 (Labor Day). (U.S. Supr. Ct. R. 13(1); 28 U.S.C. § 2101).

3 Basis for Jurisdiction begins with the most recent issue, and extends back in time to the most original
relevant issue. In the same order as defined from U.S. Supr. Ct. R. 14 (e).

1

4. A panel for the U.S. Court of Appeals for the Tenth Circuit dismissed Appeal
after a Petition for Rehearing, 6/8/21.4 The panel held the petition for three
seasons and issued a flippant and insubstantial disposition.
5. The U.S. Court of Appeals for the Tenth Circuit recalled its mandate, 6/3/21.5
The case was apparently missorted into a pile of cases governed by the 14-day
expression of the rule (original criminal cases and private civil cases), and not
the correct 45-day expression of the rule as based in the entitlement.
(Fed. R. App. P. 40 (1)). The petition for rehearing was timely filed, but the
filing was voided or tampered with by the Appellate clerk.
6. Said mandate issued in error on 5/18/2021.6
7. Panel Member, Hon. Ms. Meghan L. Moritz issued a dispositive order and
judgment, 4/26/21; referred to herein, “The Moritz Opinion.”7
8. Hon. Mr. Dale A. Kimball (D. Utah) issued a judicial affidavit of appeal taken
in bad faith, 2/1/21, against objections.8
9. Hon. Snr. Judge Dee Benson died 12/1/2020 while the case was in U.S. Court
of Appeals for the Tenth Circuit.9 I issued Notice recognizing his passing the

4 Main Appendix, at 001.
6 Id., at 003
6 Id., at 005.
7 Id., at 007.
8 Id., at 023.
9 https://www.deseret.com/utah/2020/ll/30/21729800/news-u-s-district-judge-dee-benson-dies-at-age72

2

following month when that information came to my attention; the case was
then promptly reassigned to Hon. Snr. Judge Mr. Dale A Kimball.
10. Hon. Mr. Benson dispositioned a Motion to Set Aside for Fraud on the Court,
7/8/2020.10 The issue is expansively misleading and demonstrates a deep and
deliberative misreading of the record extensive enough it would require
interrogatory.
11.1 filed a Motion to Set Aside for Fraud on the Court, defining terms for judicial
recusal are relevant, which also defined standing in U.S. Courts of Appeals,
Fed. R. App. P. 4.
12. Hon. Mr. Dee Benson and Hon. Chf. Mag. Mr. Paul M. Warner issued order
and judgment disposing 4/27/20; referred to herein, “The Benson Opinion.”11
13. Pursuant vindication of my Original Complaint12 defines Federal Jurisdiction
under the Older Americans Act and the Civil Rights Act,13 rel. to the Utah
Division of Aging and Adult Services/Adult Protective Services (a joint agency),
and so the United States Supreme Court may cite 28 U.S.C. § 1254(1),14
reviewing a constitutional claim against the State of Utah, the Jurisdiction of

10 Mn. Appx., at 027.
11 Id., at 031.
12 Supplementary Appendix, Opening Complaint, at 011-101.
13 Id., at 032-034.
14 “Cases in the courts of appeal may be reviewed by the Supreme Court by the following methods: (1)
By writ of certiorari granted upon the petition of any party to any civil or criminal case, before or after
rendition of judgment or decree [.]”

3

the U.S. Court of Appeals for the Tenth Circuit, 28 U.S.C. § 1291 - Federal
Question Jurisdiction of the U.S. District Court (28 U.S.C. § 1331) defined the
Older
42

Americans
U.S.C.

Act
3000,

§

of
et

1992,
seq.

and

Ut. Code § 62A-3-301, et seq., (Utah DAAS/APS).
14. A statute of Utah DAAS/APS statutory claim, a “censure,” is pre-empted by
the Older Americans Act and the constructive observation of civil rights:
Federal laws related to definitions and prohibitions of Conflicts of
Interest/coercion of parties genuine interest in State plans, and the Civil Rights
Act jurisdiction which is conferred where no other remedy may be available
(42 U.S.C. § 1343) to vindicate Civil Rights in relation to the Older Americans
Act, civil injunction not yet reviewed, 42 U.S.C. § 1988, and civil fine not yet
reviewed, 42 U.S.C. § 1983.
15. The District Court Judge dismissed the case under the authority of the IFP
screening statute, 28 U.S.C § 1915(e), without any other pre-trial process
4/27/20.
16. Service of Complaint and Summons was completed 4/20/20.
17. The Opening Complaint filed in United States Court for the District of Utah
on 4/3/2020, after the court had granted a Motion to Proceed in forma pauperis
that same day.15

16 When filed, the COVID-19 Pandemic was becoming critical, and the clerk for District Court took the
filing electronically, PDF Documents and filed them directly on my behalf, that is, with my consent.

4

OTHER POINTS RELEVANT TO ORIGINAL JURISDICTION
OVER THE MATTER
18. The Chief Judge of the U.S. District Court for the District of Utah was directly
petitioned to intervene under 28 U.S.C. § 136(b),16 but did not make any reply.
[R. (Letter of Notice) 633-637; (Notice on Motion to Recuse) 638-643, 648;
(Request for Reassignment of the Judge) 653-661.
19. A supplementary brief advising the United States Supreme Court of the
conditions of Criminal Contempt will be filed to maintain brevity.
20. Note on Personal Jurisdictions: Any Justice maintaining likely personal
familiarity with the relevant jurists who hold personal jurisdiction over the
case has been asked to recuse on a separate paper motion.
21. Note on Personal Jurisdiction: Hon. Ms. Meghan L. Moritz was requested to
recuse from this matter if found assigned, she has not addressed this matter.
[R. (Notice of Appeal) 671].

The pre-trial documentation is extensive, with prepared indexes of relevant laws, legislation, and case
background, and case disclosures. The documentation will be sufficient to proceed through a pre-trial
process, and support Motions for Interrogatory subpoenas and a dispositive motion for an indefinite
injunction.
16 “The Chief judge shall have precedence at any session he attends.”

5

STATEMENT OF THE CASE
I.
At Fraud on the Court, rel. and apparent Criminal Contempt in his/her official
transactions, I demonstrate the legal limitations to the Law of the Case doctrine, the
Rooker-Feldman doctrine, res judicata, claim/issue preclusion, transactional
approach or unconstitutional dispositive issue preclusion, all to allow against the
prejudice of an Obstruction of Justice, review of the constitutionality of a state law.
I generally restate from a Motion to Set Aside for Fraud on the Court, this
Statement of the Case which will provide the United States Supreme Court with
direct supervisory review. Original pleadings were represented in the Third Person.
I have taken significant care that all citations are true to the original record as the
record presented for review.17
United States Supreme Court should reject relevant holdings of the United
States Court of Appeals for Tenth Circuit, and the U.S. Court for the District of Utah,
for a lack of express Subject-Matter jurisdiction because U.S. Courts do not have
jurisdiction, nor any judge the inherent personal jurisdiction, to dismiss unresolved
and competently placed civil applications; for Insufficiency of Process, the lower court
opinions have not developed a process sufficient to bear technical reference, or

17 The original Opening Complaint directed any person reviewing to a Supplement of relevant laws,
significant and comprehensive compendium of statutes related to this case. The supplement consists
of printed copies of the Public Law, relevant Utah laws, and various real authorities. It is available on
the electronic record which was transferred to the Court of Appeals.

6

export/import Law of the Case precedence and prejudice, “[The Benson Opinion]18
lacks subject-matter is not related to any part of the petitioner’s complaint. [The
Nuffer Opinion]19 also lacks subject-matter jurisdiction. (Fed. R. Civ. P. 12 (b)(1)).
Both opinions as cited in the dispositive [judgment and order] refer only to the IFP
statute and make no recognizable claim related to any statement [I] actually
pleaded.”
“Both opinions are provided beside a Supplemental brief of disclosures wherein
all prior case process is made available.”20 [Citing Supplementary Brief of
Disclosures, UTD ECF No. 4-7, Case No. 2:20-cv-00205-DB].
“The only conclusion [I] can reach is that [The Benson Opinion] has not read
the complaint he cites to a deficiency,
“Plaintiffs complaint in this action is generally confusing
and difficult to comprehend. As best the court can decipher,
it appears that Plaintiffs complaint alleges that his civil
rights were violated in the proceedings in the
Administrative Case and that certain Utah statutes and
legislation are unconstitutional.”21
Thus, a restatement of the Nuffer opinion carried through maintains a
preclusive effect characteristic of prejudicial case screening under the in forma
pauperis statutes,

18 Main Appendix, The Benson Opinion, at Page 032-043.
19 Id,., The Nuffer Opinion, at 053-060.
20 Supplemental Appendix, Motion to Set Aside, ECF# 20, at 105-125, 108 f 11-13.
21 Mn. Appx., Benson, at 037.

7

“After reviewing Plaintiffs [complaint], Judge Nuffer
---------concluded that'Plaintiff sactionwas'barredby the Rooker------------------Feldman doctrine. Judge Nuffer also concluded that it
would be futile to provide Plaintiff with an opportunity to
amend his complaint. Accordingly, Judge Nuffer
[dismissed] with prejudice under the authority of the IFP
statute for failure to state claims upon which relief could
be granted. See 28 U.S.C. § 1915(a)(2)(B)(ii).22
The Benson Opinion generally has prejudiced case termination without
subject-matter review, and upholds a declaration of “meritlessness.”
The Moritz Opinion (present representation) rejects Benson’s review more
irrespectively of the Nuffer opinion, and then deviates from withstanding expression
of United States Supreme Court, is comparably deviant to the Nuffer opinion.
“Without statutory basis to preclude any claim, as to find a claim precluded in
Utah Appellate Courts,
The Supreme Court has made clear that federal courts
have jurisdiction over suits to enjoin state officials from
interfering with federal rights: ‘A plaintiff who seeks
injunctive relief from state regulation, on the ground that
such regulation is pre-empted by a federal statute which,
by virtue of the Supremacy Clause on the Constitution,
must prevail, thus presents a federal question which the
courts have jurisdiction under 28 U.S.C. § 1331 to resolve.’
The Wilderness Society v. Kane County, Utah 470 F.2d
1300, 1304 (D.Utah, 2006) citing Shaw v. Delta Airlines,
Inc., 463 U.S. 85, 96 n. 14 (1983).22
The above citation from the Motion (Fed. R. App. P. 4) and a faithful read and
review of the Opening Complaint, which I believe I have the right to insist upon, are

22 Id., at 049.
23 Supp. Appx., Motion to Set Aside, at 117 (1|42).

8

sufficient to remand this case. Why should a judge have neglected clear expression
on any order? This question is more important in Reasons Granting this Petition
(Part II).
Due to the extraordinary caprice of several Judges there is more.
II.
“The Older Americans Act, as stated in the complaint Jurisdiction,24 has
Federal question [standing] both in OAA statutes 42 U.S.C. § 3027 and
42 U.S.C. § 3058i, and Utah Administrative Rule R510-1,25 which cites the OAA.”
[Citing the Opening Complaint at Page 13 f46].
“The Civil Rights Act may share the same standing in a course of vindication,
given precisely that 42 U.S.C. § 1988 [prevails] the Federal question when stated,
‘the jurisdiction in civil and criminal matters conferred on the district courts... shall
be exercised in conformity with the laws of the United States, so far as such laws are
suitable to carry the same into effect.”26

24 Id., Opening Complaint, at Oil, 032-034.
26 R510-1 is more directly relevant to Service of Process (032), and Facts (036) establishing direct merit
to review under the Utah Administrative Procedures Act, and also defines how the agency is
interpreted by the Older Americans Act. That is, I serve ancillary Utah records-keeping agencies
because Federal statutes have been delegated by the State of Utah to serve the genuine interests of
those agencies. [R. (Supplement of Statutes, Rules, Authorities and U.S. Constitution) 201-389; 254]
26 Supp. Appx., Motion to Set Aside, at 117-18 ^42-44.

9
\

This obviously includes issues under Rooker-Feldman doctrine because U.S.
Courts will nominally mitigate prejudice to hear equitable claims for relief.
What the Nuffer opinion accomplished was to color his own misrepresentations
of civil right under context of Rooker-Feldman speculations without ever establishing
whether the competing claim against sua sponte judicial opinion were factual or not,
“Appellant has a responsibility to disclose the previous attempt at filing and
proceeding this case matter was critically obstructed, and perjured against.
Case 2:18-cv-00728-DN-PMW (D. Utah), [10th Cir. Case No. 19-4041], at the time it
was filed met an obstruction of process at summons[.]”27
But if I can observe the Nuffer opinion less directly, then the court has the
right to agree with me, if left alone the Nuffer opinion is nominally limited to a late
attempt to remove a State of Utah Administrative case to the Federal court.
Any opinion defined to be related and so precludes and closes judicial review
technically implicates bad faith against Judge Nuffer’s personal jurisdiction, as
would define any subject-matter treatment of my case as “meritless.”28
It seems to me those expressions demand too much of my opportunity to
present this OAA question. The Court will also recognize the Benson opinion
maintains transactional misrepresentation comparably.

27 Supp. Appx., Disclosures (ECF# 4-7), at 154-157.
28 Mn. Appx., Order and Judgment, Case No. 20-4087, at 051; see also [Benson] at 034.

10

Either way, the Court of Appeals has not effective right to alter the standing
of my pleadings under Abuse of discretion terms; if my expression of the case falls
short, the relevant argument will reject me directly. The Moritz Opinion in
conducting the same kind of bad-faith maintenance, is maliciously correlative, not
logical and clear, and falsely objective, without substantive originality herein.
Clarification of the Benson and Moritz opinions is absolutely necessary.
The Benson opinion had not basis in fact or law to develop Summary
Judgement,
“[Under] this transactional approach adopted by the Tenth
Circuit, the court concludes that of Plaintiffs ‘claims or
legal theories of recovery’ in this action against State
Defendants ‘arise from the same transaction, even, or
occurrence.’ Wilkes v. Wyo. Dept, of Empl. Div. of Labor
Standards, 314 F.3d 501, 504 (10th Cir. 2003). Plaintiffs
complaint in this action make it clear that [all of his claims]
and legal theories have their genesis in the Administrative
case. ”29
“Wilkes itself is sustained of King v. Union Oil co., 117 F.3d 443 (10th Cir.
1997), a Rule 56(c) standard, that,
‘A summary judgment is appropriate if there is no genuine
issues as to any material fact and...the moving party is
entitled to judgment as a matter of law.’ Id.
“[The Benson Opinion] is excepting an important decisional element in Wilkes,
‘This court has repeatedly held that ‘all claims arising from the same employment
relationship constitute the same transaction or series of transactions for claim

29 Supp. Appx., Motion, at 110; See also, Mn. Appx., at 041.

11

preclusion

purposes.”

Wilkes

at

504,

citing

Mitchell v. City of Moore, 218 F.3d 1190, 1202 (10th Cir. 2000).
“This is neither a civil cause at action without Federal laws to find a Federal
question intervening to action by and under the Civil Rights Act (this is a late pre­
emption case), nor is there any subject-matter basis against which a Summary
Judgment related to the IFP statute, as should been have found from [the Nuffer
opinion], and opinions from Utah Appellate Courts.”30
The Mortiz Opinion does not directly recognize that above pleading under
Fed. App. R. App. P. 4, and digresses immoderately,
review
de
novo
dismissal
under
§ 1915(e)(2)(B)(ii). See Kay v. Bemis, 500 F.3d 1214, 1217
(10th Cir. 2007). To the extent that Velasquez raises any
claim of error in the district court’s denial of his
post-judgment motions, we review those rulings for abuse
of discretion. See United States v. Buck, 281 F.3d 1336,
1342-43 (10th Cir. 2002)(reviewing denial of relief on
ground of fraud on the court for abuse of discretion); United
States v. Mobley, 971 F.3d 1187, 1195 (10th Cir.
2020)(reviewing denial of motion to recuse for abuse of
discretion)... Velasquez raises no meritorious claim of error
on appeal. It is unclear whether he challenges the district
court’s holding on any of the claim preclusion elements,
and if so, what his contentions are.”31
“We

The Moritz opinion develops no clarifying perspective or reference defined on
the Motion.

30 Supp. Appx., Motion to Set Aside, at 111 If 18-21.
31 Mn. Appx., The Moritz Opinion, at Oil.

12

She goes on to cite my Appellate brief,32 but disrespects the Motion to Set Aside
for Fraud on the Court indirectly, and develops a sua sponte collateral attack which
ignores the Wilkes-King Fed. R. Civ. P. 56 construction/criticism, procedurally ignores
the Opening Complaint: she misrepresents petitions and filings to conduct political
misdirection, and now tests this court for its power of real acuity, the implied
standing of certiorari questions.
Yet she agrees with me,
“We nonetheless conclude that the district court erred in
dismissing [based] upon claim preclusion. Although
Velasquez has forfeited review of this error by failing to
raise it in his appeal brief, See Bronson v. Swensen, 500
F.3d 1099, 1104 (10th Cir. 2007), we exercise our discretion
to address it, See U.S. v. McGehee, 672 F.3d 860, 873 n.5
(10th Cir. 2012).”33
I reject every statement made on the Moritz opinion primarily because it is
pursuant the same Fraud and frivolous appeal as the Nuffer opinion. She commits
perjury against my Appellate Brief to ignore Wilkes-King Rule 56 construction, a
comprehensive False declaration,
“A judicial officer must do more than speculate, ‘There
must be something to plausibly suggest that defendants
published false information. See Ashcroft v. Iqbal, 556 U.S.
662, 19 S. Ct. 1939, 1949, 173 L.ed.3d 868
(2009)(explaining Bell Atl. Corp. v. Twombly, 550 U.S. 544
(2007), plausibility standards asks for more than a sheer
possibility that a defendant has acted unlawfully’); see also
32 NOTE ON THE APPELLATE BRIEF: NOT APPENDED; The brief is shorter than the Notice of
Appeal, but maintains similar claims.
33 Mn. Appx., [Moritz] at 012.

13

Ridge at Red hawk, L.L.C., v. Schneider, 439 F,3d 1174,
--------- 1177'(10th Cir. 2017).34~[Rr(Notice of Appeal)~70rf65]'
'

-------

That citation is critically prejudiced, but entertains circumstance of fraud
committed by a Federal officer in the Tenth Circuit. “Indeed, Twomhly’s plausibility
standard requires,
‘factual content that allows the court to draw the
reasonable inference that the defendant is liable for the
misconduct alleged.’ Ashcroft, 129 S.Ct. at 1979. ‘Vague
allegations do not suffice. Mecca v. U.S. 389 F.Appx. 775,
785 (10th Cir. 2010).”
Both the Criminal Contempt statute and the Fraud on the Court citation
provide such a context as deliberative misrepresentation by a judicial officer in the
course of read and review.
The Moritz Opinion generates a complex perjury of the Law of the Case
doctrine, expressly in defective procedural solipsism, producing issue preclusion
standing on alternative basis, while I yet have a true question and significant political
complaint,
“[A] dismissal for lack of jurisdiction still precludes a
plaintiff from relitigating that ground for dismissal... A
dismissal for lack of jurisdiction.. .precludes relitigation of
the issues determined in ruling on the jurisdiction
question[.] Brereton v. Bountiful City Corp., 434 F.3d 1213,
1219 (10th Cir. 2006) (holding the preclusive effect of a
dismissal for lack of standing ‘is one of issue preclusion
(collateral estoppel) rather than claim preclusion (res
judicata); 18A Charles Alan Wright & Arthur R. Miller,
Federal Practice and Procedure § 4436 (3d ed., Oct. 2020
34 “The complaint must give the court reason to believe that this plaintiff has a reasonable likelihood
of mustering factual support for these claims.” Id.

14

up date) (‘Although a dismissal for lack of jurisdiction does
not bar a'second'action as a matter'of claim~preclusionTik
does preclude relitigation of the issues determined in
ruling on the jurisdiction question unless preclusion is
denied for some other reason.’) Because issue preclusion
bars Velasquez’s claims against the State Defendants in
Velasquez II, we exercise our discretion to affirm the
district court’s dismissal of those claims on an alternative
basis.”36
“We treat arguments for affirming the district court
differently than arguments for reversing it. We have long
said that we may affirm on any basis supported by the
record, even if it requires ruling on argument not reached
by the district court or even presented to us on appeal.”
Richison v. Ernest Group., Inc., 364 F.3d 1123, 1130 (10th
Cir. 2011). Thus, we must affirm the district court’s
judgment ‘if the result is correct although the lower court
relied upon a wrong ground or gave a wrong reason.” Id.
Moreover, Velasquez had the opportunity to address claim
preclusion in the district court, and the doctrines of claim
preclusion and issue preclusion are ‘closely related,’
SIL-FLO Inc. v. SFHC, Inc., 917 F.2d 1507, 1520 (10th Cir.
1990). Finally, issue preclusion presents a legal question.
See Bell v. Dillard Dept. Stores, Inc., 85 F.3d 1451, 1453
(10th Cir. 1996). Thus, the efficient use of judicial resources
weighs against remand for initial consideration by the
district court.”36 (Footnote 5)
Generally, issues are derivative of trial, Issue preclusion is rather determinant
from previously resolved questions, and petitioners sometimes err in a new complaint
or motion believing there is basis to circumvent the effect of a prior judgment,
collateral estoppel.37

35 Mn. Appx., [Moritz] at 013.
36 Mn. Appx., [Moritz] at 014, Footnote 5.
37 “The court of appeals affirmed the district court’s dismissal on alternate grounds. Moss v. Parr
Waddoups Brown Gee & Loveless, 2010 UT App 170, 1J13-4, 237 P3d 899... [Even] though Moss was

15

In terms of Utah law, and in terms of the Nuffer opinion, where this subject is
relevant, this second petition is not a direct collateral proceeding, the various judges
under review are perhaps being too liberal with a terminology of ‘Absolute Judicial
Privilege.’ They consistently gravitate to a rights “injury” in the Utah Appellate
Courts, not a position I developed for review, and fraudulently exploited that prospect
as if I complained of abusive disposition at necessary judgment.38
The Supreme Court must recognize this OAA question has not been respected
or answered, so I ask any justice consider that if there is available jurisdiction for a
true question, there is relief from a judgment barring that question.
Therefore, the fact is evident the Moritz Opinion neglects Summary Judgment
basis while carrying frivolous speculations against an appellate brief. Did she
actually mean the court previously resolved jurisdiction?

not a party to [suit], the court of appeals held that she was ‘similarly precluded from collaterally
attacking the validity of the discovery orders’ because she could have ‘filed a motion to intervene or a
petition for an extraordinary writ.’ Id. !|11. The court of appeals quoted, ‘the general rule of law’ that
‘a judgment may not be drawn in question in a collateral proceeding and an attack upon a judgment
is regarded as collateral if made when the judgment is offered as the basis of a claim in a subsequent
proceeding.’ Id. fl4 (quoting Olsen v. Bd. Of Educ. Of Granite Sch. Dist., 571 P.2d 1336, 1338 (Utah
1977)). Tf 12. Moss v. Parr Waddoups Brown Gee & Loveless, 285 P.3d 1157, 2012 UT 42, 1162 f 15.
38 The original claims of injury were part of a Notice of Appeal prefaced the complaint presented before
Judge Nuffer.

16

The answer is No. She actually intends because original jurisdiction was
relevant under the Nuffer opinion, we can no longer litigate the originality of any part
of the question which Hon. Mr. David Nuffer took up and extended across the entire
constitutional basis for such effective claims as would depose a State’s congressional
statute, by merely alleging or speculating I had immediately failed to do so.
Moritz’ Abuse of discretion standard will imply that because the matter is not
technically settled, I cannot win a disagreement with the judge. But that is what the
Fraud on the Court citation is for, and it supercedes very technically any opinion or
affidavit merely rejecting an abuse of discretion was made without a technical
showing. Proceeding against my pleading voided my written representative
assessments.
Thereby, it rather appears the Moritz opinion has found cause within the
express terminating power of the court of appeals to state the appellant forfeits his
right to the lawsuit even if a previous question somehow went unheard. Is that not a
cruel convention, which coerces legal forfeiture of deliberative misrepresentation?
Legal forfeiture and default is obviously not ever based in the speculative authority
of the IFP screening statute especially while Fraud and Criminal Contempt
allegations remain withstanding.
Restated, The Moritz Opinion nullifies the effect of the Benson Opinion, but
maintains and redevelops the vague hostility expressed by the Nuffer opinion to
demonstratively ignore obvious difference between intended issues/federal questions
and reviewable issues (final decisions).
17

Does the OAA intend or support lawsuits against states which violate rights
and coerce persons/families participation in state programs? This is my original
question, buried under judicial misrepresentation. If only judges had appreciated it
readily, and made any rejection of my document more appreciable.
Such is a direct and adversarial evasion, and an illegal form of claim avoision,
similar to people who pretend not to have received documents served. The judge or
clerk doing so dispositions the whole court. If all judges were allowed to go that way,
the court would drift chaotically into political sedition.
Some would argue the very same obstruction was once committed by the
Former

Hon.

Pres.

Mr.

James

Madison,

that

before

Marbury v. Madison, 5 U.S. 137 (1803) Obstruction of Justice on original issues by
plausibly illegal issues avoision.
A lack of jurisdiction must be demonstrated, and plausible jurisdiction may
dismiss without prejudice. Why would a judge lie, or even fail to be clear? Where was
the Benson opinion ever factually precedented? The affidavit of deficiency cannot be
so irrespective as to be indecent, unreasonable, illogical, or manifestly unjust for all
the time, energy, and spirit it takes to petition for judicial review.

18

REASONS GRANTING
I.
Are the Nuffer, Benson, and Moritz opinions unconstitutionally denying me
original standing, and reasonable appellate standing on implicit and totally
undefined personal jurisdiction terms?
The real question is upon the availability of jurisdiction, and not on
unconstitutional claim forfeiture, or issue preclusion, as represented on the
Statement of the Case in the United States Supreme Court.
The Moritz opinion represents both The Benson and Nuffer opinions, but is
entirely devoid of expression of subject-matter jurisdiction. The specifics of the
Opening Complaint have represented The Older Americans Act and the Civil Rights
Act recognize any State plan may be reviewable, original jurisdiction not a subject
usually requiring explanation than the relevant laws will show and allow.
The Motion to Set Aside for Fraud on the Court directed the reader to review
claims for relief, Fed. R. Civ. P. 8, but “relief’ in this terminology pre-trial is not that
“relief from a judgment” but is more comprehensive, deeper statutory relief which I
describe in terms of qualified exclusivity.
Differing jurisdictions entertain different subject questions, and are provided
only slightly different approaches to the rules of procedure. Without the technical
showing of exactly why the Opening Complaint is deficient, the lower court judges
establish a parliamentarian vanguard of disinterest which rejects the complaint

19

on-sight and prevents the filer from being present with most succinct and relevant
verbal expressions.
This assessment is evident: The OAA is critically restated across the Opening
Complaint in context with certain UDHS agency laws which bear relevance; more
generally, I presented a technical and pragmatic evaluation of the statute citing
Mathews v. Eldridge, 424 U.S. 319 (1976) for developments therein rel. Morrissey v.
Brewer, 480 U.S. 471 (1972), and “[generated] six evaluative questions relevant to
Utah DAAS/APS, ‘Supported’ claims and investigations defined of Abuse of a
Vulnerable Adult per 42 U.S.C. § 3002(1), Utah R510-1, and Ut. Code § 62A-3-301(2),
holding

the

power

is

exclusively

administrative

and

does

not

grant

a

civil-administrative privilege to the case worker because the precise discretion, the
process due exercised, is always due of administration of licensure in its discrete
capacities of professional knowledge, proximity, thus capacity, to care for the
vulnerable adult. ’^9
The Due Process operates in an administrative consent-relevant dialogue, and
beyond that is coercive: “On civil censure, the prejudice appears de facto of the Abuse
statute; but a statute defined of an untried claim is ex post facto, and its advocacy
questionnaire rather relies upon the necessity to protect the [Vulnerable Adult] than
it does upon the allegation against the respondent.”40

39 Supp. Appx., Opening Complaint, 067.
Id., 077 1172.

20

Above is from the Analysis part, presenting the fourth of six evaluative Due
Process questions related to Adult Protection Reports (“questionnaire”), “Whether
Professional Capacity is Unrelated to Civil Claims,” this presents strong reasoning
for recognizing how clauses prohibiting Conflicts of Interest, coercion of participation,
are perceived to be civil-rights affirmative.
By this time in the petition, I have already presented the Statement of the Case
sufficiently to carry the argument through; the argument, without further analysis
is less than three pages, “particularly, 42 U.S.C. § 3058d (a)(6)(B), ‘the state will not
permit involuntary or coerced participation in the program of Services described [by
alleged victims, abusers, or their households].”
“[I] also hold the question of tangible deliberation to violate right when there
is strong precedence for the State to both observe that the “supported” claim lacks
process when it is effective as declared by an APS case worker, and to have evaluated
strict scrutiny of such an issue before effect, Utah S.B. 63 (2008).”41
This is, or would be, a “Fabric of our Constitution” styled argument which the
Older Americans Act makes very plain; I present generally that we have
demonstrated very real and efficient pervasive and instrumental Public Standing;
there is literally a broad and comprehensive doctrine which centralizes any and every
issue.

41 Id., 067-8.

21

The Motion to Set Aside directs the Judge presiding, the Appellate Panel, to
first read the complaint in order, and to follow its many recitations and references to
the statutes which are currently upon the record and only provided to this brief a
happy modicum of the genuine interest of the Opening Complaint based in Relevant
Statutes.42
The emphasis of the Motion is in support of the available claims for relief,
although I have not yet filed a dispositive motion without more conferencing and
process, “The Statement of the complaint provides insight into the complexity of the
question, that it involves several UDHS agencies, and the argument develops the
grounds for injunction, legal fine, is synthetic.”43
The Benson and Moritz opinions never delve into the Opening Complaint
sufficiently to recognize the seven citations from the Motion (See Note 42) the in
forma pauperis statute operates as jurisdiction per se, otherwise stated in lieu of
jurisdiction, that process supplanting statutory review and obstructing the
evaluation of the available jurisdiction, denying to hear the pre-trial case, and
denying relief from the judgment.
In re Philadelphia Entm’t partners u. Commonwealth of Pennsylvania Dept, of
Revenue, 569 B.R. 394 (E.D. Pa. 2017) is a highly capable standard to allow original

42 Id., Motion to Set Aside, at 107 ^[8.

43 Id., f 9.
22

jurisdiction to stand any independent claim.44 Great Western Mining & Mineral Co.,
v. Fox Rothschild LLP, 615 F.3d (2010) is an implacable expression of Exxon-Mobil
Corp. v. Saudi Basic Indus., Corp. 524 U.S. 280 (2005) narrative given its observation
of jurisdictional-procedures inherent; review and reject45 the state court judgment
nominally means direct intervention by amendment and does not limit civil pre­
emption cases.
Otherwise, the Moritz ruling constitutes a direct change in the limitations of
the Federal Jurisdiction, and that opinion is not clear, and is not actually
precedented. The insinuation on the Moritz opinion is of somehow-deficient standing,
but that is not expressed either.
The Moritz Opinion therefore is not complex enough to recognize that
difference, and conflicts the intentions of Fraud on the Court citations in terms of a
deliberative misrepresentation with generalized basis for issues preclusion. She
neglects that if there is Fraud, issues preclusion is the last assessment and not the
first, she can always have guaranteed Fraud by not representing a true filing.
Therefore, the basis for Summary Judgment is not settled sufficiently for claim
preclusion or issue preclusion, the transactional frame of issue preclusion is patently
fraudulent without a careful appreciation of Subject-Matter. A petitioner twice filing

44 Id., at 109H15.
46 Id.

23

defective documents is owed the most plain showing of the technical deficiency, and
not the unreviewable machinations of obstruction of jurisdiction.
Open review of that subject will find the most general statutory questions are
withstanding, and the State of Utah will be burdened to account for how its records
keeping practices are relevant to families, and duly authorized to maintain the OAA,
and Civil Rights which the OAA also happens to maintain in a terminology
prohibiting statutes of conflicted interest.
“The right in question has observable statutory origins under OAA,
42 U.S.C. § 3001(1), ‘to secure equal opportunity to the full and free enjoyment of the
following objectives: Freedom, independence, and the free exercise of individual
initiative in planning and managing their own lives, full participation in the planning
and operation of community-based services and programs provided for the benefit,
and protection against abuse, neglect, and exploitation.”’ (Cited Appendix B,
42 U.S.C. § 3001, at Page 056, [R. 260])48
The above Due Process47 part of the Statement of the Case48 prefaces a
perspective which includes family members right to be free from coercion of
participation in state plans, even persons the state agency would hold issue against,
on the basis the agency’s centralizing goal is supportive and protective, and the so

46 Id., 047-48 H55-57.
“7 Id., 046-054.
48 Id., 040-067.

24

citizens in the State of Utah, and any state really, are plausibly immune from a civil
censure. The original immunity of citizens in Public Standing terms, impartial and
without unnecessary intervention or abridgment, maintains this question against
any lingering fraudulent declaration of deficiency rel. IFP Screening statute.
The prejudice behind this argument suggests the state is perseverating
historically over the prospect of taking legal responsibility over some vulnerable
adults, this is atavism and that which potentially aggravates complex psychological
vulnerabilities.49
Generally, the investigatory instrument of an “Adult Protection Report” is
being misused and the original complaint defines how delegated by the Utah congress
on Utah S.B. 63 (2008). The Opening Complaint is emphatic about this throughout,
in terms of Ut. Code § 62A-3-301(28), forensic claims Supporting Abuse of a
Vulnerable Adult.
The Moritz Opinion fails to uphold distinctions about the intent of the law
which are subtle between intended issues and reviewable issues, and so manages to
Obstruct Justice of due jurisdiction and due standing without ever hearing and
disposing of any kind of plausible legal position based in the relevant laws; the panel
deviates abjectly and with apparent deliberation of legal malice.
Such a Fraud is capable to aggravate the statutory rights related by avoiding
knowledge of the issue. Fraud on the Court turns out to be an instance of only partial

49 Id., at 094-098.

25

judgment on an observed false declaration, this where the judge is adversary to
clarifying and impartial pleadings, voids or manipulates the representative
expression unduly and/or without consent.
This Due Process perspective is usually sufficient to protect subject-matter
related rights, but a legal malice will intend to do harm by meddling with, and
compounding injury to, people’s political standing. Unqualified rejection of his
standing and credible representations does so, at the expense of a due process which
respected the time and life of persons.
The Moritz opinion neglects that judges’ opinions are reviewed in confidence to
United States Constitution, under oath, and are not immune from discretionary
review on appeal, or in original action, where they are the most important
participants in court cases who must faithfully represent every relevant person and
filing more unerringly.
II.
IFP screening was used as a form of criminalization Case Screening in this instance was not precedented.
The Moritz opinion finally operates as an implied pleading to recognize this
case as dispositioned criminal case, her solipsism in argument presents and then
represents procedural avoision of the Motion to Set Aside for Fraud on the Court and
then next the Opening Complaint.

26

Her declaration that Fraud is “patently without merit” operates to divert the
court’s attention from the direct statements and citations on the Motion and provides
an improper segue between unprecedented claim preclusion and so falsely apparent
issue preclusion.
No judge prior even once grappled with the argument sufficiently to have
dispositioned the Opening Complaint, or have prevented subsequent repeat filings.
The PLRA defines a strict point of absolute foreclosure, logistically this relieves
doctrinal precedence from generating unconstitutional interpretive form which states
too arbitrarily when the court will no longer hear from a person on a subject.
The Equal Access to Justice Act will guarantee payments of Costs of Fees for
successful defendants, and certain successful appeals.
This parity produces, even in instances of partial success, many original
express delineations between claim preclusion and issue preclusion. Without the
PLRA three-strikes provision, the appeal in some technical respect can always be
revived. The huge majority of these instances are probably resting on solid evidence
in the course of procedural review. I have not read all of them.
But they come up in the course of case study, and academic review which
makes a sophisticated chronicle of cases at all levels of relevancy. I cited earlier a
somewhat famous civil case in the Utah Supreme Court for its well-contexted
definition of issue preclusion, the same case also defines comprehensive limits to the
‘Judicial Proceedings Privilege’ and I now present it in context to The Moritz opinion
27

usage of apparently illegal decisional privilege which attacks the person filing rather
than representation, demonstrating there is aggressive vague judicial expressionism
on the opinions which tolerates Criminal misrepresentation of IFP complaints,
“Historically, the judicial proceedings privilege in Utah has
been used to ‘immunize certain statements that are made
during a judicial proceeding from defamation claims.’ Pratt
v. Nelson, 2007 UT 41, ^ 27, 164, P.3d 366. We have
extended the privilege beyond defamation claims to include
‘all claims arising from the same statements.’ [Citation
omitted].
“Whether the privilege extends to conduct as well as
statements occurring in the course of judicial proceedings is
an issue of first impression in Utah. To answer this
question, we look to the policies underlying the judicial
proceedings privilege, as well as how other states have
addressed this issue.”
“We have noted that Utah’s judicial proceedings
privilege has broad underlying principles. ‘The privilege is
intended to promote the integrity of the adjudicatory
proceeding and its truth finding processes.’ Pratt, 2007 UT
41, Tf27. It ‘exists for the purpose of preserving both the
integrity of the judicial proceeding and the associated quest
for the ascertainment of truth that lies at its heart.’
O’Connor v. Burningham, 2007 UT 58, ^[30, 165 P.3d 1214.
[Omitting paragraph 31]
“Numerous courts have, in considering the issue for
the first time, recognized the wisdom of expanding this
privilege to encompass more than just statements
occurring during the course of judicial proceedings. For
example, the Florida Supreme Court held that the judicial
privilege ‘must be afforded to any act occurring during the
course of a judicial proceeding.. .so long as the act has some
relation to the proceeding.’ Levin, Middlebrooks, Mabie,
Thomas, Mayes, & Mitchell, P.A. v. U.S. Fire Ins. Co., 639
So.2d 606, 608 (Fla. 1994). The court reasoned that the
‘rationale behind the privilege afforded to defamatory
statements is equally applicable to other misconduct
occurring during the course of a judicial proceeding.’ Id.
The court therefore concluded that attorneys must ‘be free
28

to use their best judgment in prosecuting or defending a
'lawsuit'without' fear of having to-"iefendtheir actidhsIiTa
subsequent civil action for misconduct.’ Id. Moss 1164-7 ^3038.

Critically I should point out how all independent litigants have such a same
and similar privilege, and in an instant where I have had to return to the District
Court fearing undue terminations at the interpretive mien of the Supreme Court’s
previous

declination,

and

the

Court

of Appeals

very limited

affirmance

(Rooker-Feldman doctrine), the judge is competing against my active privilege to
proceed beyond unfounded preclusive statements in an attritive gambit for case
visibility. She increases the risk to my case unnecessarily.
“[Omit paragraphs 33, 34 on Texas and W. Virginia law.]
“Consistent with the broad policy concerns underlying the
judicial proceedings privilege, we agree with these
jurisdictions that the privilege should extend to an
attorney’s conduct occurring in the course of judicial
proceedings. The privilege thus embraces the principle that
‘an attorney acting within the law, in a legitimate effort to
zealously advance the interests of his client, shall be
protected from civil claims arising due to that zealous
representation.” Id. At 656. We now clarify the contours of
the privilege as applied to attorneys, including what
plaintiffs must plead to overcome it.” Id.

To the demerit of her independence, and those in the lower courts her opinion
would maintain, Hon. Ms. Meghan Moritz has rather advanced an indecent and
unreasonable position which lacks political mutuality50 at her insistence to apply the

50

The Moritz Opinion rational attitude, in the words Hon. Pres. Mr. Benjamin Franklin, is pari passu,

she rejects the mutual understanding of the pleader and departs from form withstanding Franklin,
29

Abuse of Discretion standard of review, and is obscenely unqualified in that exception.
She goes beyond simple misrepresentation of the complaint.
The Court of Appeals cannot validate any privilege to compare further
restrictions against my right to petition and demonstrate this OAA question; the
judges have ignored my pleadings entirely, have not even spared reasonable
recognition of the standing of the question.
Therefore she criminally misuses “patent” and express prejudice of claim
preclusion/issue preclusion delineation characteristic to PLRA/EAJA, wherein
convicts and civil losers sometimes attempt to circumvent the rational basis
presented with expression of a flawed alternative basis for the same issue. She asks
whoever screens cases for the United States Supreme Court to treat this case as a
defective criminal petitions, all such elements are present but not rooted in or directly
against the petitioner’s representative filings.
Her use of Abuse of Discretion terminology is fraudulent; procedurally and
disinterestedly, under color of law and authority, replaces all pleadings in a manner
which compares the qualified disinterest of the court. It is a privilege taken at the
expense of more certain representation, and more sparing reasoning.

Benjamin. “An Account of the Highest Court of Judicature in Pennsylvania, viz. The Court of the
Press.” Works of the Late Doctor Benjamin Franklin: Consisting of His Life, Written by Himself,
together with Essays, Humorous, Moral & Literary chiefly in the manner of The Spectator. Wogan,
Byrne, Moore, & Jones, 1793, 208, 212.

30

The Moritz opinion, following the same pathos of disinterest first established
in the Tenth Circuit rel. The Nuffer Opinion and now the Benson Opinion, is thereby
prejudicially requesting and even commanding the subornation of the superior court
Justices, and Clerkship, to her active perjury against the Opening Complaint which
has abridged this party’s Original standing.
There really are not secure arguments at Fraud on the Court, either. Once I
have analyzed standards of review, the offending judge is already working against
me to reject her failures to maintain precedence, and this provokes the Public
Standing argument when the judge takes a privilege to misuse the court’s power
beyond the measurable procedural citation.
The Moritz opinion is illegal because it executes decisional privilege unduly
under color of Judgment, and has no basis but expresses the terminating power of
the court to attempt permanently destroy a case whose background disclosures begin
to implicate criminal misconduct by judiciary in the course of read and review.
The decisional privilege is a capacity of the Public Standing of a United States
judge, and when abused provokes the mutual standing of the Public person so
represented under abuse.
She demands at my liberty comparable criminal complicity from members of
the United States Supreme Court. Please investigate and correct her.

31

III.
The New Judicial Federalist as expressed of Mathews v. Eldridge, 424 U.S. 319 (1976)
is perennial and verbose, primarily because the standard of review evaluates the
genuine interest of the United States government, meaning the genuine interest at
the execution of the laws is not based in Separation of Powers but rather based
primarily in the Public Standing doctrine
The Opening Complaint cannot technically be more brief without more process;
a trial brief will largely have resolved any ambiguity in how we define the law and
rights at the center of this argument.
It will be cruel and highly unusual to compel a third filing of this same
complaint, or even an amended one, while the lower courts have shown an absolute
resistance to recognizing the complex question now before the United States Supreme
Court.
There has been no showing of technical defect to have mandated termination
at case screening, and the reasoning thus proves there was Fraud on the Court at
deliberative misrepresentation.
U.S. Courts should not be so adverse that we cannot take risks, or be
respectfully humbled. This is now many years of my life, my family’s life, under
duress of a dishonest American judiciary.

32

RELIEF^
A.
U.S. Const. Amends. I and V are violated in terms of the right to petition, against the
obstruction or deliberative misconduct thereof; whole complaints and motions addressing
speculations have been ignored sepulchral declarations of the judge, meaning that his
execution of procedures is decentralized from the petition, and he or she obstructs the original
Public Standing of the petitioner in failing to recognize written legal pleadings.
Such actions coerce the frivolous appeal; vagueness and obscurantism are not Federal
judicial trademarks.
It was deliberative misrepresentation which abridged active pleadings, and
coerced procedural results without in error, and without faithful review.
The Court of Appeals should have dispositioned the Rule 4 Appellate process in accord
with my Motion to Set Aside for Fraud on the Court, and failed to qualify said departure, or
actually resolve the conclusions in the Benson opinion.
The Benson opinion is unresolvable in the present context; an example of unqualified
termination at case screening, and utterly improperly defined issue preclusion in a
transactional frame.
It is uncertain what element of my Opening Complaint was so totally ill-conceived
that the document and any subsequent process could not bear prejudice, or reveal any
competently placed question. It will be a hardened miscarriage of justice if I do not find a
sufficient explanation from any court and have to present the same document again.
Without rejecting my political standing to the question presented,

33

“Article III of the Constitution limits the jurisdiction of the
---------- federal courts-to particular ‘casesJ or ‘controversiesV’'The~case or
controversy requirement helps preserve appropriate separation
of power between the courts and the other branches, Lujan v.
Defenders of Wildlife, 504 U.S. 555, 559-60, 1120 S.Ct. 2130, 119
L.Ed.2d. 351 (1992), and provides the courts with ‘that concrete
adverseness which sharpens the presentation of issues
necessary for the proper resolution of constitutional questions,’
City of Los Angeles v. Lyons, 461 U.S. 95, 101, 103 S.Ct.1660,
75 L.ed.2d 675 (1983) (internal quotation marks omitted).
The Moritz opinion allows Federal judges to lose sight of how government limits
powers of state officers by simply ignoring the characteristic difference between intended and
plausible issues, and those which are reviewed for their finality.
The Supreme Court must acknowledge the Fraud on the Court citation is only a
partial judgment which may define the most apparent liability of the judicial officer on any
separate issue (incl. one at Costs). Fraud on the Court relief operates precisely to mitigate
false declarations (and even have allowed the judge to correct one) rather than correct errors
or mistakes.
I recognize Due Process is damaged where the Right to Petition is abridged the
standing of the written filings, effectively altering those pleadings without due cause.
B.
I respectfully define it is requisite, Order remanding to District Court for continued
proceedings, validating the original Opening Complaint, and either recognizing or mandating
new issue of summonses.
Without more direct replies, the parties served were issued the Opening Complaint
fairly, excepting the United States Administration on Aging, who may require separate
interrogatory or a separate Notice of Appearance to avoid adversarial standing.

34

The Benson opinion is Set Aside.
Hon. Snr. Judge Dale A. Kimball will preside.

C.
I demand Court of Appeals will hold vacated any opinion immediately dispositive to
hearing, or having heard,

the present case in context to a challenge against

unconstitutionality of the Utah DAAS/APS “Supported” censure; judges voided standing for
a question, and failed to competently cite weaknesses in a written document.
The Court of Appeals shall duly amend any related order to make allowance for such
a question.
D.
The Nuffer Opinion (2:20-cv-00728-DN) is set aside for Fraud on the Court, with
citation to the relevant and forthcoming issue. Beyond resolution of claims related to Fraud
on the Court, the case is moot.
The Supreme Court may attempt to decide whether Partial Judgments rel. Fraud on
the Court, a prompt correction of any Fraud may, may or may not, as depending on the
severity of the real disposition of a contempt, relieve a judicial party from liability at Fraud
on the Court; as comparable to contempt citations/allegations.
E.
Evaluation of Criminal Contempts under 18 U.S.C. § 401(2). A separate brief will be
filed addressing this subject.

35

F.
The Supreme Court may issue notice of any direct misconduct to the American Bar
Association against Hon. Ms. Meghan L. Moritz.
Any such question may require further process related to other Judicial Officers,
unless the Supreme Court will find it shown by direct association on either the Panel
Members Hons. Baldock and Eid, or against the Judge Nuffer in the District Court.
G.
Judgment of Costs and Fees is due; 28 U.S.C. § 2412 at the hourly rate prescribed on
the statute, the U.S. Supreme Court will consider an exception at Triple Costs on partiality
to reject legal malice of frivolous appeals against judicial parties in the U.S. Court of Appeals
for the Tenth Circuit.
In the Utah District Court, the Supreme Court may state how comparable fees will be
billed, as whether the Court shall pay the Costs and Fees for the deceased provoking the
frivolous appeal under Fraud, or whether a separate filing shall have to be initiated against
the estate of the deceased.
If the Supreme Court rejects the Nuffer opinion, I will consider to file a bill of costs
thereon as well.

36

CONCLUSION
The accusation I begin to develop against the State of Utah is of deliberative AntiFederalism, or impropriety of Exceptionalism, because the OAA puts the Civil Rights
question so close to the Genuine Interest question that it asks states plans to observe a
holistic form of the Older American, the Vulnerable Adult.
Prohibition of Coercion versus mandatory participation, is a crucial paradigm in
health care law, the OAA obviously designs Family Law when necessary to preserve the
safety of a party the legal system may otherwise recognize is indigent, or requiring direct
professional representation. The OAA protects the person against whom the allegation is
made because the genuine interest is that the welfare of the individual not exclude the family,
and not to include an overtly unrelated party in the Vulnerable Adult’s advocative continuum.
The OAA presents for us that the Justice System, not State’s Administrative agency,
has to have evaluated these questions, because the state’s statutory conclusions are actually
designed to affirm protective orders without controversy. So adjudicative claims are not
necessary.
The Opening Complaint covers all of this.
The Utah S.B. 63 (2008) encourages social disinterest in how states how handle these
issues. I fear it attempts to psychologically aggravate and punish people who may suffer
abuse in context with family, attempting to break them psychologically and emotionally in
the windfall of some kind of domestic incident.
I accuse judges in the District of Utah Court and the U.S. Court of Appeals for the
Tenth Circuit of deliberately aggravating the prejudice. I suspect all have read the principal
briefs and motions and deliberately misrepresent more or less totally plain statements out of

37

sheer contempt for my wordiness, or in a spirit of anti-litigation, or offense at a gross fine, or
maybe even contempt for the U.S. Constitution.
The Nuffer, Benson, and Moritz opinions all neglect the positive effect on the family
of the intended issues and demand excessive hardship at the amount of time-energy I commit
more or less while they advance the dispositive power of speculation in lieu of concrete
rationale; it is not authentic Law of the Case, but doctrine in lieu expressing politically
dissociative counter-representational and adversarial Rule 56 summaries; strict Criminal
Contempt under color of law and in the course of read and review.
They are damaging the soundness, simplicity, and victory of later years in Family life
with obvious Criminal misconduct of the process, and so drive the State of Utah’s dispositive
point home against the person who would certainly intuit the difference between a limited
overstep by a state administrator and a deliberative omission by a State congressman. It is
the most direct legal malice to premeditate direct political harm of any kind on a basis which
lauds the rejection of United States Constitution and Laws.

Signed
Carlos Velasquez, Appellant
Civil Bureaucratic Federalist
Date:

38

■/-

